              The Department of the Treasury’s HR Connect
                   Human Resources System Was Not
                        Effectively Implemented

                                  February 2005

                       Reference Number: 2005-10-037




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        February 14, 2005


      MEMORANDUM FOR ASSISTANT SECRETARY OF THE TREASURY FOR
                     MANAGEMENT/CHIEF FINANCIAL OFFICER


      FROM:                 Gordon C. Milbourn III
                            Assistant Inspector General for Audit
                            (Small Business and Corporate Programs)

      SUBJECT:               Final Audit Report - The Department of the Treasury’s HR
                             Connect Human Resources System Was Not Effectively
                             Implemented (Audit # 200310022)


      This report presents the results of our review of the implementation of the Department
      of the Treasury’s HR Connect human resources system in the Internal Revenue Service
      (IRS). This audit was conducted in response to a request from the Assistant Secretary
      of the Treasury for Management/Chief Financial Officer (CFO).
      In summary, the Department of the Treasury decided to implement the HR Connect
      system based on promising capabilities and the belief that it offered a cost-effective
      solution for the Department of the Treasury’s and its bureaus’ redundant, expensive,
      and inefficient human resources systems. However, some of the originally expected
      program features and cost/benefits have since been changed or eliminated. Each year,
      the Department of the Treasury’s HR Connect Program Office submitted business case
      analyses to the Office of Management and Budget (OMB), but they were not consistent
      and did not include complete information on systems that were to be replaced. As a
      result, the Department of the Treasury and the IRS have incurred unexpected costs for
      maintaining software and systems that were to be replaced, incurred additional costs for
      modifying the HR Connect system, and scaled back the expectations for system
      capabilities.
      The HR Connect Program Office has not provided adequate management oversight for
      major portions of the HR Connect system implementation. The costs to implement and
      operate similar software at other Federal Government agencies are significantly lower.
      The HR Connect system implementation at the Department of the Treasury cost
      $173 million, while the implementation of similar human resource systems at the Coast
      Guard and the United States Department of Agriculture cost $24 million and $15 million,
      respectively. The oversight of the contractor does not appear to be adequate, and the
                                           2

project has experienced significant delays and poor initial coordination between the IRS
and the HR Connect Program Office. In Fiscal Year 2003, the Department of the
Treasury executives responsible for the implementation of the HR Connect system left
to attain positions at the Department of Homeland Security. Furthermore, at the
conclusion of our audit fieldwork, the Treasury Assistant Secretary for
Management/CFO advised us that the HR Connect Program Office had been realigned
to the Office of the Chief Information Officer (CIO) effective September 19, 2004. We
believe that, for this realignment to be effective, the CIO will need to take actions to
improve program oversight and reduce costs.
Since the beginning of the HR Connect system implementation, there have been
changes in the expected savings and costs of the project. Moreover, the HR Connect
Program Office extended the expected life cycle of the system from 10 to 15 years.
These adjustments increased the return on investment to show a higher payback. We
do not believe the HR Connect Program Office had an adequate basis for extending the
expected system life cycle. Further, even if the system is in place for its projected
15-year life cycle, the underlying analysis provided by the HR Connect Program Office
does not support the savings claimed, especially those related to staff reassignments or
reductions. As such, the expected savings of $899 million was unsubstantiated.
We recommended that the CIO ensure future business case analyses submitted to the
OMB explain how system functions have been revised and how these changes have
affected the expected return on investment, schedule, costs, and benefits. In addition,
the CIO should reevaluate the duties which have been delegated to the contractor by
the HR Connect Program Office to ensure the HR Connect Program Office retains the
duties and information necessary for proper financial and technical oversight. The CIO
should identify the number, cost, and benefits of custom modifications made to the
software for the Department of the Treasury and each bureau and collect and consider
this information before approving any future requests for customization. The CIO
should also coordinate with other agencies which have implemented PeopleSoft
Federal Human Resources Management Systems® software to achieve a more
cost-effective model for operating and maintaining the HR Connect system. Finally, the
CIO should properly account for the HR Connect system costs and assess the
likelihood of projected benefits based on the system’s limitations and an assessment of
the economic systems life, so future decisions are based on correct information.
Management’s Response: The Department of the Treasury’s management agreed with
our recommendations and proposed corrective actions to address the problems
identified in the report. These proposed actions include reviewing the basis for
HR Connect’s actual and estimated costs and benefits; reconciling the reliability of
assumptions, financial, and metric data with program accounting; and establishing a
basis for improving program management. Management also established a governance
structure to provide strategic direction and review any changes to HR Connect.
Management will establish a tracking system to monitor bureau disposition of legacy
systems and provide accountability for the retirement of such systems. Management
also filled a vacancy in the business operations organization with a permanent Federal
employee experienced in financial analysis and business case planning.
                                            3

Management plans to undertake a more comprehensive assessment of the justification
for costs and benefits and the impact of each custom modification while capturing those
results as part of the configuration control process. Furthermore, management plans to
study other agencies as appropriate to obtain information on the operations and
maintenance cost models as part of a Governance Board initiative to assess options for
allocating HR Connect costs to its users. Management also plans to hire an
independent consultant to assist in establishing a cost-accounting method for tracking
costs and quantifying benefits by cost categories and by HR Connect customers.
Management believes that the knowledge gained from the process analysis and
industry best practices will help improve oversight of the HR Connect program.
Management also included in their response some general comments about the
HR Connect Program and continues to assert that their projected cost savings have an
adequate basis. As such, management disagrees with the outcome measures we
reported related to improving the reliability of their information. Management also
disagrees that the $21 million spent on the Integrated Personnel System (IPS) and the
$20 million spent on 2 cancelled contracts was wasted. Management’s complete
response to the draft report is included as Appendix V.
Office of Audit Comment:
Given the problems we have noted with contractor oversight, we have concerns with
regard to the CIO’s plans to hire an independent consultant to assist in establishing a
cost accounting method. We believe that the CIO should first seek the assistance of
cost accounting experts within the Department of the Treasury through the Assistant
Secretary for Management/CFO.
Management was never able to provide adequate data or sound analysis to support the
projected savings for the HR Connect system or detail the projected savings which are
actually attributable to CareerConnector, which is separate software. Furthermore,
management was not able to demonstrate any benefit from the $21 million spent on the
IPS and the $20 million spent on 2 cancelled contracts. The Office of Audit’s complete
response to management’s comments is included as Appendix VI.
Copies of this report are also being sent to Department of the Treasury and IRS
managers affected by the report recommendations. Please contact me at
(202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector General
for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.
                         The Department of the Treasury’s HR Connect Human
                          Resources System Was Not Effectively Implemented




                                                  Table of Contents


Background ............................................................................................... Page 1
The HR Connect System Has Not Met Some of the Original
Expectations.............................................................................................. Page 3
         Recommendation 1: .......................................................................Page 6

The HR Connect Program Was Not Effectively Managed ......................... Page 7
         Recommendation 2: .......................................................................Page 14
         Recommendations 3 and 4: ...........................................................Page 15

Reported Financial Information Was Not Reliable..................................... Page 15
         Recommendation 5: .......................................................................Page 21

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 23
Appendix II – Major Contributors to This Report ....................................... Page 25
Appendix III – Report Distribution List ....................................................... Page 26
Appendix IV – Outcome Measures............................................................ Page 27
Appendix V – Management’s Response ................................................... Page 29
Appendix VI – Office of Audit Comments on
Management’s Response.......................................................................... Page 37
             The Department of the Treasury’s HR Connect Human
              Resources System Was Not Effectively Implemented

                            In Fiscal Year (FY) 1995, there were approximately
Background
                            20 information systems throughout the Internal Revenue
                            Service (IRS) to handle processing of human resources
                            information, such as timekeeping, payroll, training,
                            recruiting, hiring, and personnel actions. Because of the
                            costs and resources needed to use and maintain these
                            systems, the IRS decided to change to a single system to
                            handle most of its human resource information needs. To
                            accomplish this, the IRS began to develop a system known
                            as the Integrated Personnel System (IPS).
                            In June 1997, the IPS project office selected PeopleSoft
                            Federal Human Resources Management Systems® (HRMS)
                            software as the commercial-off-the-shelf software solution
                            to replace the aging IRS systems. Over a 10-year life cycle,
                            the IPS was to serve as the single integrated source of
                            workforce data for the IRS in an automated, self-service
                            environment. The benefits of implementing the IPS would
                            include personnel savings, improved data accuracy,
                            accessibility, availability, and customer satisfaction.
                            Also in FY 1997, independent of the IRS’ efforts, the
                            Department of the Treasury conducted a Human Resources
                            System Study and reported that the configuration of its
                            human resources systems, anchored by the National Finance
                            Center (NFC) Payroll/Personnel System, was extremely
                            expensive to use and maintain, used inefficient processes,
                            relied on outdated technology, required too much
                            specialized knowledge to operate, offered limited user
                            access, and did not provide adequate and timely
                            information. Department of the Treasury officials believed
                            it was necessary to commit to a major investment in a
                            human resources management system. They decided to
                            implement a Department of the Treasury human resources
                            system known as the HR Connect system, which would also
                            use PeopleSoft Federal HRMS® software as the basis for the
                            system.
                            In FY 1998, an analysis by the Department of the Treasury
                            indicated that, for the HR Connect system to be
                            cost-effective, its implementation would need to include all
                            Department of the Treasury offices and bureaus, especially
                            the IRS because it is the largest Department of the Treasury
                            bureau. During FYs 1998 and 1999, the IRS contributed

                                                                                  Page 1
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               $7 million in payments to the Department of the Treasury’s
               vendor for the HR Connect system. In FY 2000, after
               discussions with Department of the Treasury officials on the
               merits, cost, and benefits of a Department-wide system, the
               IRS began contributing funds directly to the Department of
               the Treasury for the Department-wide effort to implement
               the HR Connect system and dropped its own attempt to
               develop a similar system. The IRS formalized its
               participation when it signed a Memorandum of
               Understanding with the Department of the Treasury in
               July 2002.
               In February 2004, the IRS Commissioner testified before
               the Congress that the HR Connect system would provide
               tangible benefits and improve the efficiency and
               effectiveness of the tax administration system.1 The HR
               Connect system was expected to be able to significantly
               reduce the costs and improve efficiencies associated with
               human resources tasks.
               We performed this review to evaluate the implementation of
               the HR Connect system in the IRS. This review was
               performed at the Department of the Treasury National
               Headquarters in the HR Connect Program Office, and the
               IRS National Headquarters in the Offices of Agency-Wide
               Shared Services and Business Systems Modernization
               located in Washington, D.C., during the period June 2003
               through August 2004. The audit was conducted in
               accordance with Government Auditing Standards.
               The completion of our audit was delayed because we
               experienced difficulty in obtaining complete and timely
               information related to the costs of implementation from both
               Department of the Treasury and IRS management. In
               addition, many of the documents provided to us as support
               for the project costs and savings were inconsistent and
               changed throughout the course of the audit. Detailed
               information on our audit objective, scope, and methodology
               is presented in Appendix I. Major contributors to the report
               are listed in Appendix II.


               1
                 Testimony before the Subcommittee on Oversight of the House
               Committee on Ways and Means: Hearing on IRS Efforts to Modernize
               Its Computer Systems (February 12, 2004).
                                                                         Page 2
                  The Department of the Treasury’s HR Connect Human
                   Resources System Was Not Effectively Implemented

                                 The Department of the Treasury’s HR Connect Program
The HR Connect System Has Not
                                 Office decided to implement the HR Connect system based
Met Some of the Original
                                 on promising capabilities and the belief that it offered a
Expectations
                                 cost-effective solution for the Department of the Treasury’s
                                 and its bureaus’ redundant, expensive, and inefficient
                                 human resources systems. The original expectations for the
                                 HR Connect system were that it would:
                                    •   Meet 80 percent of the IRS’ business requirements.
                                    •   Produce a positive return on investment, assuming a
                                        10-year system life cycle that began in FY 1997.
                                    •   Replace 20 existing IRS systems, including the need
                                        to use the NFC Payroll/Personnel System.
                                    •   Offer new capabilities, such as hiring and recruiting.
                                 However, the program features that were originally
                                 expected have been changed several times since the
                                 program began in FY 1997, and some of the functions have
                                 been eliminated. In addition, the Department of the
                                 Treasury and the IRS have incurred additional costs for
                                 modifying the HR Connect system to add certain new
                                 functions. Program officials were unable to adequately
                                 demonstrate the effects of these changes or measure the
                                 associated costs and benefits. Moreover, the annual
                                 business case analyses that the HR Connect Program Office
                                 submitted to the Office of Management and Budget (OMB)
                                 did not consistently report how these changes would affect
                                 the systems that were to be replaced.
                                 Business case analysis submissions to the OMB were not
                                 consistent
                                 Each year, the HR Connect Program Office must submit to
                                 the OMB a Business Case Analysis (Exhibit 300) to report
                                 progress on system development, expected benefits and
                                 costs, and justification for continued funding of the system.
                                 The HR Connect Program Office submitted the first
                                 business case analysis for the HR Connect system in
                                 FY 1997 and submitted updates each year to ensure
                                 continued funding. The business case analysis submissions
                                 included the overall costs and benefits expected from
                                 implementation of the HR Connect system, but the data
                                 provided from year to year were not consistent.

                                                                                        Page 3
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               Consequently, we could not compare the data from year to
               year to determine which functions had been eliminated and
               which had been added, nor could we compare the associated
               costs, benefits, and supporting data.
               In the FY 1997 Business Case Analysis submission, the HR
               Connect Program Office reported that there were over
               90 systems Treasury-wide that would be replaced by the HR
               Connect system and reported the annual costs of these
               systems to be $53 million. However, neither a list of these
               systems nor the costs and savings associated with each
               system were included. In subsequent business case analysis
               submissions, the HR Connect Program Office listed some of
               the systems to be replaced, but they were not clear as to
               when decisions were made to continue using systems that
               were planned for replacement. This inconsistency made it
               difficult to assess the progress of implementation. For
               example, in the FYs 2001 and 2002 Business Case Analysis
               submissions, use of the Office of Personnel Management’s
               Employee Express system was identified for replacement
               with expected annual savings of approximately $580,000.
               However, during our audit, HR Connect Program Office
               officials asserted they had never planned to discontinue the
               use of the Employee Express system. Business case
               analysis submissions did not include details sufficient to
               identify when the decision was made to continue using the
               Employee Express system.
               The savings expected from retiring existing systems have
               been reduced significantly
               In its first business case analysis submission to the OMB,
               the HR Connect Program Office did not specify which
               systems the HR Connect system would replace. Despite this
               omission, HR Connect Program Office officials did identify
               annual savings of $53 million attributable to retiring
               existing systems. Based on the savings and the functions
               expected from the HR Connect system, it appeared the
               Department of the Treasury planned to use the HR Connect
               system to replace most of the major human resources
               systems, including payroll processing, used by its bureaus.
               The benefits of having a single system to provide the
               capabilities of these systems were a significant factor in the
               decision to adopt the HR Connect system. The HR Connect

                                                                      Page 4
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               system was expected to provide a single, integrated system
               that would allow efficiencies in training users and provide a
               single information source for employees. However, as of
               August 2004, a number of Treasury’s major systems had not
               been replaced by the HR Connect system. Table 1 shows
               the major human resources systems used by the IRS that
               have not been replaced.
               Table 1: Systems Used by the IRS That Have Not Been Replaced by
                                   the HR Connect System

                         System Name                     System Function
                NFC Payroll system                 Process payroll.
                Totally Automated Personnel        Create personnel actions and
                System - including Single Entry    track personnel, employment,
                Time Reports (SETR)                and benefit-related data. The
                                                   SETR module is used for
                                                   timekeeping.
                Employee Express system            Provide employees access to
                                                   their own accounts to view
                                                   and update personal data.
                Administrative Corporate           Training administration.
                Education System (since replaced
                by the Electronic Learning
                Management System)
               Source: The HR Connect Program Office.

               Of the systems used by the Department of the Treasury, the
               NFC payroll system had the highest annual operating costs,
               at approximately $30 million. At the start of the project, the
               HR Connect Program Office realized there would be a
               serious reduction in cost savings if the HR Connect system
               was used only as the payroll interface while the NFC was
               retained as a payroll provider. An analysis performed in
               FY 1998 showed that the benefits of the HR Connect system
               implementation would be reduced by an estimated
               $176 million if the Department of the Treasury stayed with
               the NFC as its payroll provider under the existing contract
               arrangement. Replacing the NFC as the payroll provider
               with the HR Connect system was critical to the Department
               of the Treasury’s justification for implementing the
               HR Connect system. However, after the HR Connect
               Program Office began implementing the HR Connect
               system, a Federal Government-wide “eGov” initiative
                                                                              Page 5
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               consolidated the payroll functions of all Federal
               Government agencies into one of four processing centers,
               including the NFC. As a result, the payroll functions of the
               HR Connect system were not implemented.
               The other systems listed in Table 1 were not replaced
               because Department of the Treasury officials believed it
               would not be feasible to modify the HR Connect software,
               PeopleSoft Federal HRMS,® to meet its requirements.
               Additional software was purchased to provide hiring
               and recruiting capabilities
               Program managers told us that, initially, significant
               monetary benefits from implementing the HR Connect
               system were expected to come from the hiring and
               recruiting capabilities. However, the HR Connect Program
               Office ultimately concluded that it was not feasible to
               modify PeopleSoft Federal HRMS® software to meet the
               Department of the Treasury’s requirements. Consequently,
               the HR Connect Program Office decided to use the
               IRS system, CareerConnector (which is the
               commercial-off-the-shelf software called QuickHire®),
               throughout the Department of the Treasury. While this
               became a new service for other Department of the Treasury
               employees, it was already available to IRS employees and
               could have been provided to other Department of the
               Treasury employees without implementation of PeopleSoft
               Federal HRMS® software. HR Connect Program Office
               officials have since deemed the CareerConnector system to
               be part of the HR Connect system; however, IRS officials
               advised us they are different systems and the IRS funded the
               CareerConnector system separate from its HR Connect
               system payments.

               Recommendation

               1. The Chief Information Officer (CIO) should ensure
                  future business case analysis submissions to the OMB
                  explain how system functions have been revised and
                  how these changes have affected the expected return on
                  investment and schedule. The business case analysis
                  submission should reflect the costs, expected benefits,
                  and justifications for the changes. In addition, the
                                                                     Page 6
                 The Department of the Treasury’s HR Connect Human
                  Resources System Was Not Effectively Implemented

                                   business case analysis submissions should include the
                                   status of systems that were expected to be replaced and
                                   allow for comparison from year to year.
                                Management’s Response: The CIO agreed to review the
                                basis for HR Connect’s actual and estimated costs and
                                benefits; reconcile the reliability of assumptions, financial,
                                and metric data with program accounting; and establish a
                                basis for improving program management. Management
                                has also established a governance structure to provide
                                strategic direction and review any changes to the HR
                                Connect system and will establish a tracking system to
                                monitor bureau disposition of legacy systems and provide
                                an accountability of the retirement of such systems.
                                The HR Connect Program Office has not provided adequate
The HR Connect Program Was
                                management oversight for major portions of the
Not Effectively Managed
                                HR Connect system implementation. The costs to
                                implement and operate similar software at other Federal
                                Government agencies are significantly lower. The oversight
                                of the contractor does not appear to be adequate, and the
                                project has experienced significant delays and poor initial
                                coordination between the IRS and the HR Connect Program
                                Office. The Department of the Treasury needs to address
                                project management areas to reduce the risk of additional
                                program inefficiencies.
                                The costs to implement and operate similar software at
                                other Federal Government agencies are significantly
                                lower
                                A comparison of the implementation of the HR Connect
                                system at the Department of the Treasury to the
                                implementation of similar systems using the PeopleSoft
                                HRMS® software at other Federal Government agencies
                                indicates the costs and time to implement the HR Connect
                                system, as well as the annual operating costs, have been
                                disproportionately higher for the Department of the
                                Treasury. The comparison is based on the number of
                                employees served by the systems. Table 2 shows a
                                comparison of the Department of the Treasury system with
                                the systems used by the United States Department of
                                Agriculture (USDA) and the Coast Guard.


                                                                                         Page 7
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               Table 2: Comparison of HR Connect System Implementation With
               That of Similar Human Resource Systems Used at Other Federal
               Government Agencies

                                        Department of
                                        the Treasury Coast Guard             USDA
               Implementation Costs         $173 million     $24 million   $15 million

               Annual Operating and
                                           $21.8 million3     $5 million   $5.6 million
               Maintenance Costs2
               Time Period to
                                               7-8 Years         3 Years       3 Years
               Implement System
               Number of Employees
                                                 138,000          50,000        43,550
               Serviced by System
               Implementation Cost
                                                  $1,254           $480           $344
               per Employee
               Operating Cost per
                                                    $158           $100           $128
               Employee
               Source: Estimates provided by agency officials.

               The functions provided by the software are similar for each
               of the agencies. The core features used by each of the
               agencies are:
                     •    Personnel actions.
                     •    Interface with the payroll provider.
                     •    Employee self-service.
                     •    Position management.
               There was some variance in the implementation of features
               such as performance management, recruiting, and training
               administration. However, the differences in the
               implementation costs and the operating and maintenance
               costs appear too great to be accounted for by the variance in
               features and the number of employees using the system.
               The Department of the Treasury was unable to provide
               adequate cost data for us to evaluate why its implementation
               and operating costs are so much higher than those for the
               Coast Guard and USDA human resources information
               systems. However, program officials informed us that they
               prioritized delivering capabilities to end users, and this

               2
                   Including planned system upgrades.
               3
                   Average operating costs for FYs 2005 through 2012.
                                                                             Page 8
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               resulted in paying for extensive modifications to the
               software.
               The HR Connect Program Office relies to a great extent
               on the contractor for project management
               The HR Connect Program Office and the IRS rely on a
               contractor to complete many of the tasks for implementing
               the HR Connect system. Since the HR Connect program
               began in FY 1997, the HR Connect Program Office has
               spent over $109 million on this contractor. To effectively
               manage the program, HR Connect Program Office
               management needs to provide effective contractor oversight
               and maintain accurate and current information on the
               progress of the project.
               HR Connect Program Office management is ultimately
               responsible for ensuring good business decisions are made,
               time periods are met, and costs remain within the
               established budget. However, neither the HR Connect
               Program Office nor IRS officials were able to provide data
               to support the costs reported for the HR Connect Program.
               They informed us that they did not have the supporting data
               because the contractor developed the funding request, and
               there was no independent Federal Government verification
               of the accuracy or completeness of the costs reported.
               The over reliance on the contractor was also evident in other
               ways. Tasks performed by the contractor, as shown in a
               recent contract status report, included:
                  •   Preparing the annual business case analysis for
                      submission to the OMB.
                  •   Preparing a status report for the Department of the
                      Treasury to respond to a request by the House and
                      Senate Appropriations Committees for information
                      on the HR Connect system implementation.
                  •   Preparing briefings to the Treasury Assistant
                      Secretary for Management/Chief Financial Officer
                      (CFO) on the HR Connect system funding options.
                  •   Developing program nominations for the
                      Association for Enterprise Integration’s 2004
                      Excellence in Enterprise Integration award.

                                                                      Page 9
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                  •   Providing financial management support, including
                      updating the budget with actual costs.
                  •   Performing contract administration functions such as
                      invoice validation and justification and processing
                      contract deliverables.
               These tasks would have been more appropriately performed
               by the HR Connect Program Office. The ability to perform
               most of these tasks is directly related to the ability to
               provide effective project and contractor oversight.
               The basis for decision making appeared to have migrated
               from the HR Connect Program Office to the contractor. We
               consistently encountered difficulty obtaining technical
               information from the HR Connect Program Office. This
               information was eventually provided by the contractor. For
               a period of more than 6 months, we requested that
               HR Connect Program Office officials provide us with a list
               of custom modifications that had been made to the
               PeopleSoft Federal HRMS® software package. Officials in
               the IRS HR Connect Program Office and the IRS Business
               Systems Modernization office informed us they were aware
               of only two custom modifications to the software.
               However, another IRS official told us the custom
               modifications had exceeded the expected number.
               After we brought these inconsistencies to the attention of
               HR Connect Program Office management, they asked the
               contractor to provide a list of the custom modifications. The
               contractor provided a list of 1,283 modifications to the
               software (as of March 2004). However, the contractor’s list
               did not identify the specific costs or benefits for each
               modification. HR Connect Program Office officials later
               explained that they did not compare the expected cost with
               the expected benefit for each modification before approval
               because their primary concern was providing the requested
               capability to the end users.
               There are a number of reasons why the HR Connect
               Program Office should properly control the number, type,
               and cost of custom modifications to commercial software.
               The principal reason is that these modifications can
               significantly increase the implementation costs and the
               eventual costs to upgrade to newer versions of the software.
                                                                    Page 10
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               We also encountered difficulty in obtaining complete and
               reliable information related to software upgrades from the
               HR Connect Program Office. In October 2002, the
               contractor recommended that the HR Connect Program
               Office upgrade to PeopleSoft Federal HRMS® software
               version 8.3. However, other delays in the program
               postponed the upgrade until January 2003, which was after
               PeopleSoft® had released version 8.8 of the software.
               Nonetheless, the Department of the Treasury went forward
               with the upgrade to version 8.3. In April 2004, more than
               1 year after version 8.8 was released, when we inquired
               about the reason for the upgrade to version 8.3, the HR
               Connect Program Office Director of Systems Development
               for the HR Connect system told us that version 8.3 was the
               most current version available. Officials from the HR
               Connect Program Office later advised us that they were
               aware of version 8.8 and provided us a cost comparison of
               upgrading to version 8.3 and version 8.8, but they did not
               provide the supporting data needed to evaluate the basis for
               their decision. Furthermore, the information provided did
               not discuss the impact the custom modifications made to the
               software would have on the upgrade process.
               HR Connect implementation for the IRS was
               significantly behind schedule
               The HR Connect Program Office initially planned for the
               HR Connect system to have a 10-year life cycle beginning
               in FY 1997. The schedule included:
                  •   The first 3 years to implement the personnel services
                      portion of the system.
                  •   The next 2 years to implement the payroll services
                      portion of the system.
                  •   The last 5 years to operate and maintain the fully
                      implemented system.
               Because the “eGov” initiative required all Federal
               Government agencies to use one of four centralized payroll
               systems, the payroll services capabilities of the HR Connect
               system were not implemented. The implementation of the
               personnel services portion of HR Connect was extended far
               beyond the originally planned date. In its FY 1997 Business
               Case Analysis, the HR Connect Program Office reported to
                                                                    Page 11
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               the OMB that the personnel services portion of the
               HR Connect system would be fully implemented in
               FY 2000. However, as of June 2004, the IRS had still not
               completed the implementation phase for personnel services.
               According to the HR Connect Program Office, several
               factors contributed to these delays, including:
                   •   Upgrades were needed to the IRS’ information
                       technology infrastructure, such as increasing
                       bandwidth, ensuring a common operating
                       environment, and providing access to the system.
                   •   Problems were encountered due to a contractor not
                       completing required tasks during the first 3 years of
                       implementation (FYs 1998 – 2000).
                   •   IRS officials further postponed conversion due to
                       filing season4 priorities.
               One additional reason provided by the former HR Connect
               system project manager in an interview with Government
               Computer News was that Department of the Treasury
               officials postponed the HR Connect system rollout at the
               IRS until the HR Connect system offered more features than
               the current IRS human resources systems had. Otherwise,
               HR Connect functionality would have been “a step
               backward” from the existing IRS systems’ capabilities.5
               The implementation phase of this project is the most
               expensive portion of the system life cycle. Delays during
               this phase of the project increased the costs significantly.
               The $21 million spent on the IRS’ development of its
               own IPS was wasted
               From FYs 1995 through 1999, the IRS tried to develop an
               integrated human resources system called the IPS. The IPS
               team had selected PeopleSoft Federal HRMS® software for
               implementation within the IRS. However, after spending
               nearly 5 years and approximately $21 million, the IRS
               abandoned the IPS project without implementing it. The
               personnel assigned to the IPS project were reassigned.


               4
                 The filing season is the period from January through mid-April when
               most individual income tax returns are filed.
               5
                 Government Computer News (May 5, 2003); Vol. 22, No. 10.
                                                                             Page 12
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               Department of the Treasury officials stated that very little of
               relevance was created by the IPS project. Many of the
               records related to the IPS were deleted or destroyed.
               When the HR Connect Program Office began its research
               for obtaining an improved human resources system, there
               appeared to be little communication with the IRS about the
               IPS project. Between FYs 1997 and 1999, both the IRS and
               the HR Connect Program Office were conducting research
               and expending resources on independent efforts that used
               the same software. In FY 1998, the HR Connect Program
               Office entered into 2 contracts, totaling $110 million, for
               assistance with the implementation of the HR Connect
               system as the Department of the Treasury’s
               Department-wide system. However, after nearly 2 years
               and expenditures of $20 million, the 2 contracts were
               discontinued.
               In May 2000, after the IRS and HR Connect Program Office
               had spent a combined $41 million on the failed IPS
               implementation and failed contractor efforts, the HR
               Connect Program Office entered into a new $110 million
               contract. The new contract called for a Department-wide
               implementation of the HR Connect system that would
               include the IRS. However, nothing from the IPS was used
               in the development or implementation of the new HR
               Connect system contract.
               In FY 2003, Department of the Treasury bureau officials
               advised the Department that a different structure was
               needed for HR Connect system program management
               In a July 2003 memorandum to the Assistant Secretary of
               the Treasury for Management/CFO, Department of the
               Treasury bureau officials reported serious concerns with the
               management of the HR Connect system project. The
               memorandum was a report on the results of their
               effectiveness and efficiency examination of the Working
               Capital Fund Program for HR Services. The memorandum
               was from the Deputy Commissioner for the IRS,
               Commissioner for the Financial Management Services, and
               Senior Deputy Comptroller/CFO for the Office of the
               Comptroller of the Currency. The memorandum stated the
               following:

                                                                      Page 13
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                 Without major reforms, HR Connect will never
                 achieve the performance levels and customer
                 satisfaction that the technology offers and that the
                 Department and its bureaus urgently need. Two
                 reforms in particular are essential:
                   ¾ Governance: HR Connect has been plagued
                     throughout its history by unreliable plans and
                     budgets, uneven technical design and operations,
                     and a nearly complete lack of accountability or
                     transparency to its customers.
                   ¾ Structure: A Departmental Office unit
                      responsible for Department-wide HR policy and
                      personnel services to the Department’s
                      leadership is inherently unsuited to provide
                      direct operational management of
                      enterprise-wide payroll and human resources
                      systems and services. Policy functions and
                      leadership service requirements will always take
                      precedence over routine service to bureaus.
                      Moreover, the central policy functions require
                      core competencies that are very different from
                      those needed to manage payroll and to deploy
                      and support HR Connect.
               In FY 2003, Department of the Treasury executives
               responsible for the implementation of the HR Connect
               system left to attain positions at the Department of
               Homeland Security. Furthermore, at the conclusion of our
               audit fieldwork, the Treasury Assistant Secretary for
               Management/CFO advised us that the HR Connect Program
               Office had been realigned to the Office of the CIO effective
               September 19, 2004. We believe that, for this realignment
               to be effective, the CIO will need to take a number of
               actions to improve program oversight and reduce costs, as
               outlined in the following recommendations.

               Recommendations

               The CIO should:
               2. Reevaluate the duties which have been delegated to the
                  contractor by the HR Connect Program Office to ensure
                  the HR Connect Program Office retains the duties and
                                                                    Page 14
                    The Department of the Treasury’s HR Connect Human
                     Resources System Was Not Effectively Implemented

                                      information necessary for proper financial and technical
                                      oversight.
                                   Management’s Response: The CIO reduced the number of
                                   contractors from approximately 112 to 34 and restructured
                                   program functions to assure Federal accountability for
                                   program decisions. In addition, the CIO filled a critical
                                   management vacancy in the business operations
                                   organization with a permanent, Federal employee
                                   experienced in financial analysis and business case
                                   planning.
                                   3. Identify the number, costs, and benefits of custom
                                      modifications that were made to the software for the
                                      Department of the Treasury and each bureau. This
                                      information should also be collected and considered for
                                      future software modification requests and will be needed
                                      to provide proper contractor oversight and to properly
                                      compare costs of upgrades with the benefits expected.
                                   Management’s Response: The CIO agreed to undertake a
                                   more comprehensive assessment of the justification for costs
                                   and benefits and the impact of each custom modification
                                   while capturing those results as part of the configuration
                                   control process.
                                   4. Coordinate with other agencies which have implemented
                                      PeopleSoft HRMS® software, such as the Coast Guard
                                      and USDA, to achieve a more cost-effective model for
                                      operating and maintaining the HR Connect system. This
                                      would include evaluating how these agencies were able
                                      to implement the software without extensive custom
                                      modifications.
                                   Management’s Response: The CIO plans to investigate the
                                   cited agencies, and others as appropriate, to obtain
                                   information on the operations and maintenance cost models,
                                   and has chartered this effort as part of a Governance Board
                                   initiative to assess options for allocating HR Connect costs
                                   to the user base.
                                   Each year, the HR Connect Program Office reports the costs
Reported Financial Information
                                   and savings expected from the HR Connect system. In its
Was Not Reliable
                                   FY 2005 Capital Asset Plan and Business Case (submitted
                                   in September 2003), the HR Connect Program Office
                                   reported that, over the 15-year life of the program, it
                                                                                       Page 15
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               expected to incur total project investment and operational
               costs of about $415 million and receive total benefits of
               $899 million. As such, the HR Connect Program Office
               expects a cumulative net savings of $484 million. However,
               the HR Connect Program Office does not have the data and
               calculations needed to support these estimated costs,
               benefits, and savings.
               Adjustments were made to the return on investment to
               show a higher payback
               Since the beginning of the project, there have been changes
               in the expected savings and costs of the HR Connect
               system. Program officials have reported the changes in the
               expected return on investment. However, the HR Connect
               Program Office could not provide the data to support
               reducing the expected system costs or increasing the
               expected savings.
               From FY 1997 to FY 1999, the projected return on
               investment for the HR Connect system project declined
               substantially, and the HR Connect Program Office became
               concerned that, without significant cost reductions, the
               result of the projections over a 10-year life cycle would be
               an unfavorable return on investment. The HR Connect
               Program Office sponsored a review which resulted in a
               number of recommended changes, including:
                  •   Centralized program management.
                  •   A Federal Government-owned development facility
                      and a single shared production environment.
                  •   Decreased contractor costs as a result of a new
                      competition.
               As a result of these recommendations, the HR Connect
               Program Office reported $59 million less in projected costs
               and $29 million more in expected savings. This increased
               the projected return on investment from $1.45 to $2.31 (per
               dollar invested) in May 2000. However, from FYs 2000
               through 2002, costs continued to increase, causing the return
               on investment to decline again. The HR Connect Program
               Office made subsequent adjustments, which included
               additional savings from employee leave reporting, but


                                                                     Page 16
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               subsequently dropped these savings. It then used OMB
               Circular A-766 as justification for extending the system’s
               economic life cycle from 10 to 15 years. In its FY 2005
               Business Case Analysis, the HR Connect Program Office
               reported that this was the primary reason for increasing the
               anticipated savings by $305 million and increasing the
               projected return on investment to $3.26.7 Table 3 provides
               information on the reported return on investment for the
               HR Connect system.
               Table 3: Changes to the Reported HR Connect Program Return on
                                         Investment
                                                                  Return on
                                   Program Costs Program Savings Investment
                   Date
                                    (in millions)  (in millions)   for each
                                                                 $1 Invested8
                   Sep. 1997           $317              $681               $2.97
                   Jul. 1998           335                605                2.40
                   Aug. 1999           343                605                2.28
                   Dec. 1999           321                428                1.45
                               9
                   May 2000            262                457                2.31
                   Oct. 2001           297                526                2.11
                   Feb. 200210          -                   -                2.03
                   Sep. 200211         314                594                2.39
                   Nov. 2002           327                594                2.33
                   Sep. 200312         415                899                3.26
               Source: HR Connect Program Office business case analysis
               submissions to the OMB.



               6
                 OMB Circular A-76, Competitive Sourcing Guidelines (1996).
               7
                 The Department of the Treasury reduced this to $3.02 to reflect a
               15 percent risk adjustment factor.
               8
                 The computation for the Return on Investment includes a factor to
               discount for the time value of money.
               9
                 Implemented the recommendations based on the program review.
               10
                  The HR Connect Program Office did not report a dollar value for
               project costs or benefits for February 2002.
               11
                  Added leave notification capability to the expected benefits.
               12
                  The Department of the Treasury reduced this to $3.02 to reflect a
               15 percent risk adjustment factor.
                                                                              Page 17
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               Although OMB Circular A-76 guidance was applicable for
               competitive sourcing planning, we do not believe the
               HR Connect Program Office had an adequate basis to use
               this guidance for the HR Connect system. We could not
               find any other Federal Government agency that used this
               criterion for system economic life cycle planning. In fact,
               one Federal Government agency specifically discouraged
               use of the OMB Circular A-76 guidance because it
               considered 15 years as “unrealistic” for automated data
               processing systems. All of the agencies we identified with
               published criteria for a system life cycle used a maximum of
               10 years, which is consistent with the HR Connect Program
               Office’s original life cycle for the HR Connect system. We
               could not identify new criteria or additional developments in
               technology that supported the HR Connect Program Office’s
               decision to extend the life cycle to 15 years. The fact that
               many of the expected functions such as payroll, recruiting,
               and training administration were never implemented
               because of changing requirements or improvements in
               technology, further indicates that a 15-year life cycle is not
               appropriate for calculating the return on investment for the
               HR Connect system.
               Consistent with other Federal Government agencies, the IRS
               Business Systems Modernization Office recommends
               project investment decisions assume that an information
               technology system’s life will be 10 years. The HR Connect
               Program Office used a more appropriate economic life cycle
               estimate when it originally made the decision to invest in
               the HR Connect system. However, after the project’s return
               on investment declined, it adjusted the life cycle, which
               improved the reported return on investment.
               Projected savings were unsubstantiated
               Even if the HR Connect system is in place for its projected
               15-year life cycle, the underlying analysis provided by the
               HR Connect Program Office does not support the savings
               claimed. In the FY 2005 Business Case Analysis
               submission, the HR Connect Program Office reported the
               HR Connect system would provide $899 million in savings
               over the 15-year life of the system. Table 4 shows the
               components of the expected savings reported to the OMB.


                                                                     Page 18
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                  Table 4: HR Connect System Expected Savings Details From
               the HR Connect Program Office’s FY 2005 Business Case Analysis
                                  Submission to the OMB
                                                            Reported Value
                Type of Savings
                                                             (in millions)
                Productivity Savings                                $633

                Operational Savings                                   116

                Other Savings                                         150

                Total Expected Savings                              $899
               Source: FY 2005 HR Connect Program Office Business Case Analysis
               submission to the OMB.

               Approximately $454 million of the $899 million in claimed
               savings was attributed to projected staff reductions or
               reassignments at the IRS due to productivity savings at the
               IRS. We discussed the projected savings from the
               HR Connect system with IRS Office of the Chief Human
               Capital Officer officials. They stated that they have
               achieved efficiencies because of other efforts such as
               reorganization and the implementation of CareerConnector
               system recruiting software. They did not attribute any
               reduction in the number of employees to the implementation
               of the HR Connect system. The HR Connect Program
               Office reported additional savings of over $57 million from
               facilities, equipment, and rent for these employees and
               savings of over $18 million in training and travel associated
               with these employees.
               In addition, the HR Connect Program Office reported
               approximately $150 million in “other savings” resulting
               from self-service implementation. The savings were
               explained in the FY 2005 Business Case Analysis
               submission as follows:
                   Other savings have increased from $42.4 million to
                   $150.4 million as a result of the effort the program
                   office expended in capturing the productivity
                   savings associated with self-service implementation.
                   The servicing ratio algorithm used to project
                   productivity savings does not take into effect the
                   savings that can be achieved outside the HR
                   community. Those savings include reduced
                                                                        Page 19
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                  processing times for employees, supervisors, and
                  managers performing HR related functions. The
                  program office has elected to place those savings in
                  the Other category, which significantly increased
                  the savings reported.
               However, the HR Connect Program Office did not produce
               evidence that these projected time efficiencies by employees
               and managers have been attained or will result in any staff
               reassignments or reductions. Furthermore, there are
               approximately 35,000 IRS employees who do not have
               direct access to the HR Connect, CareerConnector, or
               Employee Express systems. The IRS has been trying to
               resolve this issue. Until this is resolved, the IRS must use
               paper processes for these employees to make changes to
               personal information and apply for job openings and will
               not achieve efficiencies that have been attributed to
               “self-service.”
               In the FY 2004 Business Case Analysis, the HR Connect
               Program Office attributed $173.8 million of “productivity
               savings” to implementing the leave notification capability of
               PeopleSoft Federal HRMS® software but could not provide
               supporting data to show how it computed this savings or
               support that the Department of the Treasury was spending
               $173.8 million on employee leave requests and notification.
               The HR Connect Program Office later realized this
               projected savings was not realistic and decided to no longer
               report such savings.
               Project costs were not validated
               The FY 2005 Business Case Analysis submission to the
               OMB showed actual costs through FY 2004 of $228 million
               and projected project costs of $415 million over the 15-year
               life of the project. Table 5 provides the cost categories
               shown on the business case analysis.




                                                                    Page 20
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                        Table 5: HR Connect System Cost Details From
                the HR Connect Program Office’s FY 2005 Business Case Analysis
                                   Submission to the OMB
                                           Actual Costs13
                                                               Projected Total
                                              Through
                Type of Cost                                    Project Costs
                                              FY 2004
                                                                (in millions)
                                            (in millions)
                Investment Costs                  $160                 $173
                Operating and
                                                    39                  185
                Maintenance Costs
                Federal Employee
                                                    29                   57
                Salaries
                Total                             $228                 $415
               Source: FY 2005 HR Connect Program Office Business Case Analysis
               submission to the OMB.

               The HR Connect Program Office budget specialist told us
               the contractor prepared the cost information for external
               reporting, and the HR Connect Program Office did not
               validate the information. The HR Connect Program Office
               budget personnel also informed us there were indirect costs
               that were not included as part of the total cost of
               implementation. These costs included the space occupied
               by the contractor for the duration of the contract and
               additional overhead costs related to the HR Connect system
               implementation. HR Connect Program Office management
               was unable to provide cost information for these items. As
               such, the Program Office does not have assurance that it
               made decisions based on reliable and complete cost data.

               Recommendation

               5. The CIO should properly account for the HR Connect
                  system costs and assess the likelihood of projected
                  benefits based on the system’s limitations and an
                  assessment of the economic systems life, so future
                  decisions are based on correct information.
               Management’s Response: The CIO plans to hire an
               independent consultant to assist in establishing a

               13
                 The FY 2004 costs were projected as of September 2003 based on the
               approved program budget.
                                                                          Page 21
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

               cost-accounting method for tracking costs and quantifying
               benefits by cost categories and by HR Connect customers.
               Using the knowledge gained from the process analysis and
               industry best practices, management believes oversight of
               the HR Connect Program will be improved.
               Office of Audit Comment: Given the problems we have
               noted with contractor oversight, we have concerns with
               regard to the CIO’s plans to hire an independent consultant
               to assist in establishing a cost accounting method. We
               believe that the CIO should first seek the assistance of cost
               accounting experts within the Department of the Treasury
               through the Assistant Secretary for Management/CFO.




                                                                     Page 22
                   The Department of the Treasury’s HR Connect Human
                    Resources System Was Not Effectively Implemented

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the implementation of the Department of the
Treasury’s HR Connect human resources system in the Internal Revenue Service (IRS). We
evaluated the capabilities of the software, the management of the program, and the reported costs
of implementation and expected savings. To accomplish our objective, we:
I.     Compared the system capabilities with the original expectations.
       A. Determined whether system requirements were defined.
       B. Determined how the IRS concluded the HR Connect system would satisfy its system
          requirements.
       C. Reviewed the Business Case Analysis submission that supported the decision to
          implement the HR Connect system and the subsequent business case analysis
          submissions that reflected changes to system capabilities.
       D. Determined whether the IRS retired existing systems expected to be replaced by the
          HR Connect system.
       E. Determined whether there were modifications to the software or additional software
          was purchased to meet the system requirements.
II.    Assessed the management of the HR Connect program.
       A. Determined whether the IRS is meeting its scheduled time periods for deployment.
       B. Reviewed preparation phases and actions to assess readiness for deployment.
       C. Assessed management decisions that affected costs, benefits, and the implementation
          schedule.
       D. Compared the capabilities, costs, benefits, and implementation schedule with those in
          other Federal Government agencies that have implemented similar software.
       E. Assessed the previous IRS attempt to develop the Integrated Personnel System, which
          was anticipated to be the single system used for processing personnel and payroll
          actions.
       F. Reviewed the HR Connect Program Office’s contractor oversight and contract
          deliverables.
III.   Assessed the reported costs of implementation and the expected benefits.
       A. Determined how the operational costs to implement the HR Connect system were
          estimated.
                                                                                         Page 23
            The Department of the Treasury’s HR Connect Human
             Resources System Was Not Effectively Implemented

B. Determined whether a cost/benefit analysis was conducted and evaluated.
C. Determined whether and why costs had escalated since the decision to implement.
D. Interviewed HR Connect Program Office officials to determine how financial
   information is compiled and whether all costs have been reported.
E. Assessed the criteria and rationale for changes made to the reported return on
   investment.
F. Interviewed IRS officials to determine the reasonableness of the expected savings.




                                                                                    Page 24
                   The Department of the Treasury’s HR Connect Human
                    Resources System Was Not Effectively Implemented

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Richard J. Viscusi, Lead Auditor
Joseph Smith, Senior Auditor
Britt M. Molitoris, Auditor




                                                                                      Page 25
                  The Department of the Treasury’s HR Connect Human
                   Resources System Was Not Effectively Implemented

                                                                               Appendix III


                                 Report Distribution List

Deputy Assistant Secretary for Information Systems and Chief Information Officer MI
Deputy Assistant Secretary Office for Organization and Change Management MH
Director, HR Connect Program Office MH
Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Human Capital Officer OS:HC
Chief Information Officer OS:CIO
Associate Chief Financial Officer for Internal Financial Management OS:CFO:I
Director, Employee Support Services OS:A:EES
Director, Planning and Measures OS:HC:M
Director, Internal Management Modernization OS:CIO:B:PM:IMM
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Deputy Commissioner for Operations Support OS
   Chief, Agency-Wide Shared Services OS:A
   Chief Financial Officer OS:CFO
   Chief Human Capital Officer OS:HC
   Chief Information Officer OS:CIO




                                                                                      Page 26
                      The Department of the Treasury’s HR Connect Human
                       Resources System Was Not Effectively Implemented

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; approximately $530 million reported in estimated
    savings for Full-Time Equivalent (FTE)1 reductions or redirections at the Internal Revenue
    Service (IRS) (see page 15).
Methodology Used to Measure the Reported Benefit:
The HR Connect Program Office reported the following FTE savings from the implementation
of the HR Connect system at the IRS:
             Staff redirections                        $454.4 million
             Training and travel                        $18.2 million
             Facilities, equipment, and rent            $57.1 million
             Total                                     $529.7 million
However, officials in the IRS Office of the Chief Human Capital Officer stated that they have
achieved efficiencies because of other efforts such as reorganization and the implementation of
CareerConnector system recruiting software. They did not attribute any reduction in the number
of employees to implementation of the HR Connect system.
Type and Value of Outcome Measure:
•    Reliability of Information – Actual; $150 million reported in estimated “other savings”
    (see page 15).
Methodology Used to Measure the Reported Benefit:
The HR Connect Program Office reported $150 million in “other savings,” which it attributed to
reductions or redirections in staff due to the implementation of the employee and manager
self-service capabilities of the HR Connect system. These cost savings are for the non-Human
Resources function employees who will have the capability to initiate actions that were formerly
processed by Human Resources function personnel. However, the HR Connect Program Office
could not produce evidence that showed shifting work from the Human Resources function to

1
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                        Page 27
                         The Department of the Treasury’s HR Connect Human
                          Resources System Was Not Effectively Implemented

other IRS functions would create opportunities to reduce the size of the staffs in those functions.
For example, the HR Connect Program Office reported annual savings of $301,189 by allowing
employees to change their emergency contact phone numbers but could not demonstrate that the
IRS would reduce staff because of this capability. In addition, the savings included
approximately $8.5 million for recruiting capabilities that were already available using the IRS’
CareerConnector system software.
Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Actual; $21 million spent for the Integrated Personnel System
      (IPS), which was anticipated to be the single system used for processing personnel and
      payroll actions, but was never implemented (see page 7).
Methodology Used to Measure the Reported Benefit:
We analyzed information available from the IPS implementation and an extract from the IRS
Automated Financial System.2 Based on this work, we determined the IRS had spent $21 million
over a 5-year period for the IPS. The IPS was never implemented and did not provide any
significant benefits to the IRS. Better business case analyses as well as improved project
management and contractor oversight should help avoid this type of inefficient use of resources
in the future.
Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Actual; $20 million expended for 2 HR Connect system
      contracts that were terminated prematurely (see page 7).
Methodology Used to Measure the Reported Benefit:
We analyzed information provided by IRS Procurement function personnel and identified nearly
$20 million expended for 2 contracts in effect between Fiscal Years (FY) 1998 and 2000. The
2 contracts were valued at a combined $110 million. The HR Connect Program Office
terminated the 2 contracts before completion because it was having difficulty overseeing the
work of 2 competing vendors and awarded a new single $110 million contract for similar
services in FY 2000. The HR Connect Program Office could not provide evidence that the
terminated contracts produced benefits or reduced the cost of the combined contract. Better
business case analyses as well as improved project management and contractor oversight should
help avoid this type of inefficient use of resources in the future.




2
    A computer-based financial accounting system used by the IRS to track appropriations and expenditures.
                                                                                                             Page 28
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented

                                                    Appendix V



  Management’s Response to the Draft Report




                                                        Page 29
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 30
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 31
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 32
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 33
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 34
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 35
The Department of the Treasury’s HR Connect Human
 Resources System Was Not Effectively Implemented




                                                    Page 36
                   The Department of the Treasury’s HR Connect Human
                    Resources System Was Not Effectively Implemented

                                                                                Appendix VI


               Office of Audit Comments on Management’s Response


Although Department of the Treasury management agreed with the findings and
recommendations in this report, its response included some general comments and assertions
about the HR Connect Program that we believe warrant additional comment. Furthermore,
management disagreed with certain outcome measures, and we believe that management does
not have an adequate basis for disagreement. We have included portions of management’s
response and our related comments below.
Management’s Response:
•   Despite the challenges of designing and implementing this large and complex program over a
    period of years, the HR Connect system is now successfully deployed throughout the
    Department of the Treasury in 11 bureaus currently using the National Finance Center (NFC)
    for payroll services. The HR Connect system delivered 26 broad functions and is widely
    used in a self-service delivery mode by managers and employees throughout the Department
    of the Treasury and by components of the Departments of Homeland Security and Justice.
    The HR Connect system is also being deployed at the Department of Housing and Urban
    Development. Through mid-September 2004, over 1.8 million tasks have been completed in
    the HR Connect system.

Office of Audit Comment:
PeopleSoft Federal Human Resources Management Systems® (HRMS) software is a commercial
off-the-shelf (COTS) software that the Department of the Treasury selected because of the
functions it offered without extensive modification. However, the Department of the Treasury
has spent many years modifying and implementing this commercially available software.
Management does not disclose how much of the functionality the HR Connect system delivered
was already available from the COTS product. We do not agree that the HR Connect system
delivered 26 broad functions. Examples of the 26 broad functions that Department of the
Treasury management cited included “Web Enablement,” “Password Management System,” and
“PeopleSoft 8.3 Upgrade.” In addition, some functions were either links or interfaces to other
software packages. For example, “Training Administration” is an interface to the bureaus’ own
Learning Management Systems. “Recruitment” is an interface to another COTS product,
CareerConnector.
Because the HR Connect system is now the only option for bureaus to process personnel actions,
it is expected that there would be a significant number of tasks completed. Reporting that
number does not provide perspective on how the software package is improving operations, such
as how many of these tasks would have been performed manually prior to the implementation of
the PeopleSoft HRMS® software. Moreover, management does not define what these tasks
                                                                                       Page 37
                    The Department of the Treasury’s HR Connect Human
                     Resources System Was Not Effectively Implemented

represent. The tasks reported included corrections to employees’ personal information that was
erroneously populated when the HR Connect system went online, such as changes to employees’
gender and birth dates.

Management’s Response:
•   The Department of the Treasury rigorously reviewed the basis for its actual and estimated
    costs and benefits to improve the reliability of its assumptions, financial, and metric data that
    established a solid foundation for enhanced program management, with the Fiscal Year
    (FY) 2006 Business Case Analysis (Exhibit 300) submission to the Office of Management
    and Budget. That submission also documented the incorporation of CareerConnector (which
    became operational in FY 2004) into the HR Connect suite of services. The Department of
    the Treasury has taken steps to improve program oversight. With the realignment of the HR
    Connect Program Office under the Office of the CIO, the Department of the Treasury
    continues the governance structure that includes bureau and customer participation at the
    executive level (to recommend strategic direction and enhancements) and added an
    Executive Steering Committee, with membership composed of the Treasury’s Chief Human
    Capital Officer (CHCO), the Deputy CHCO, the Chief Information Officer (CIO), and
    Associate CIO - HR Connect, with decision authority to guide the program through its
    operations and maintenance phase of the life-cycle.

Office of Audit Comment:
The FY 2006 submission was the only Exhibit 300 that we did not review during the audit,
because it was submitted after the completion of our field work. Although management claims
to have taken prudent steps before submitting the FY 2006 Exhibit 300, it had not taken such
efforts in its previous submissions. In addition, the inclusion of CareerConnector in the
Exhibit 300 does not authenticate management’s assertion that it is part of the HR Connect
system. CareerConnector is a stand-alone COTS product that could have been implemented
without the PeopleSoft HRMS® software.

Management’s Response:
•   The identification of factors that extended the Internal Revenue Service (IRS) deployment
    accurately pinpoints several that were outside the control of the HR Connect Program Office,
    such as filing season priorities. As of May 2004, all IRS employee records and transactions
    were being processed through the HR Connect system, thus completing IRS implementation.

Office of Audit Comment:
The audit report included some of the reasons the Department of the Treasury cited as causes for
the delay in implementing the software. However, some of these reasons were not out of the
control of the HR Connect Program Office. For example, the IRS’ filing season priorities are
recurring and predictable and should have been included in the deployment schedule.

                                                                                             Page 38
                    The Department of the Treasury’s HR Connect Human
                     Resources System Was Not Effectively Implemented


Management’s Response:
•   The comparison of different PeopleSoft implementations across the Federal Government as a
    measure of effective management assumes similarity. However, the report does not account
    for differences in scope, methodology, and business requirements. The comparative data
    does not explain what is included in the costs of these implementations, making a
    comparison of HR Connect system costs inconclusive, other than to say the latter took longer
    and cost more.

Office of Audit Comment:
The report notes the similarities and differences in the functionalities and provides a listing of the
core functionalities that we compared (see page 8). Although we agree that benchmarking does
not provide for an identical comparison, we included it at the request of Assistant Secretary of
the Treasury for Management/Chief Financial Officer.

Management’s Response:
•   IRS officials confirmed their HR Connect system Working Capital Fund payments, from
    FY 2003 to present, included over $3 million for CareerConnector. The HR Connect
    Program Office also funded $1.2 million for CareerConnector to host support and system
    integration/data feeds. The full recruitment solution was provided by coupling the
    requisition capability, competencies, and announcement criteria already operational in the
    HR Connect system with the best features of CareerConnector (e.g., online rating and
    ranking). The agreement between the Department of the Treasury and IRS to integrate
    CareerConnector into the HR Connect system suite of services as a component of the HR
    Connect system’s recruitment functionality was effective for FY 2003, although
    CareerConnector was not operational for use by any Department of the Treasury bureau until
    November 2003, when IRS began its pilot.

Office of Audit Comment:
We agree with IRS officials, who maintain that CareerConnector is a stand-alone COTS software
product that is not dependent on the HR Connect system. To state that CareerConnector is part
of the HR Connect system’s suite of functions is misleading; the recruiting portion of the HR
Connect system suite was actually never used. PeopleSoft Federal HRMS® software provides a
suite of functions which includes recruiting; however, HR Connect Program management did not
implement this function because they concluded that it was not feasible to modify PeopleSoft
Federal HRMS® software to meet the Department of the Treasury’s requirements. Instead, an
interface was provided to the separate CareerConnector program. While this became a new
service for other Department of the Treasury employees, it was already available to IRS
employees and could have been provided to other Department of the Treasury employees
without implementation of PeopleSoft Federal HRMS® software.

                                                                                              Page 39
                      The Department of the Treasury’s HR Connect Human
                       Resources System Was Not Effectively Implemented

Management’s Response:
•   The Department of the Treasury disagrees that the projected productivity savings of
    $454 million were unsubstantiated. Each year, as part of the Exhibit 300 submission, the IRS
    provides the HR Connect Program Office with Full-Time Equivalent (FTE)3 savings actually
    achieved and those estimated. The IRS Human Capital Office and Agency-Wide Shared
    Services confirm the anticipated FTE savings previously identified as being attributable to
    efficiencies gained by implementing the HR Connect/CareerConnector remain accurate.
    Savings at the IRS occurred in increments beginning in FY 2004 and are projected to reach
    the end-state level of 743 FTE by the end of FY 2006. As the incremental savings occur
    each year, they are applied against critical IRS funding shortfalls during that fiscal year
    and/or are reinvested to mission critical programs via the budget process. The IRS identifies
    and pools Service-wide savings, prioritizes needs, and redirects the savings for unfunded
    costs (e.g., pay raise) and high-priority programs.

Office of Audit Comment:
We confirmed that the IRS Chief Human Capital Officer did not attribute any savings to the
HR Connect system. The implementation of the HR Connect system coincided with a major
restructuring and consolidation of the IRS Human Capital Office. Because of concerns about
whether significant benefits would be actually achieved through the implementation of the HR
Connect system, the IRS Chief Human Capital Officer directed program managers not to base
personnel reductions on the HR Connect Program Office’s promised savings. Instead, program
officials made reductions based on efficiencies gained from the reorganization and consolidation
of responsibilities of the Office of Strategic Human Resources and the Office of Labor Relations
under the new single Human Capital Office. In addition, the IRS has achieved savings from the
implementation of CareerConnector but maintains that this is a stand-alone software package and
not a benefit of implementing the HR Connect system. IRS officials advised us that they notified
Department of the Treasury management that they agreed with the comments attributed to them
in this audit report.

Management’s Response:
•   The Department of the Treasury has reevaluated and improved HR Connect system
    documentation that reflects the benefits attributable to program implementation. However,
    the Department of the Treasury disagrees that $150 million in “other savings” (i.e., time
    freed up by using the HR Connect system to perform self-service actions) is unsubstantiated.
    The Department of the Treasury used sophisticated commercial software that compared
    pre-HR Connect system process steps and data assumptions provided by the bureaus, with
    those created by the HR Connect system. This software calculates potential savings that



3
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours.
                                                                                                        Page 40
                   The Department of the Treasury’s HR Connect Human
                    Resources System Was Not Effectively Implemented

    could be realized by full HR Connect system utilization. A report documenting the results of
    this analysis was provided to each bureau.

Office of Audit Comment:
The HR Connect Program Office did not provide us with a demonstration of the software that
computed the savings or all of the assumptions that it used when computing savings. The use of
software does not ensure that correct assumptions were made in computing savings. Based on
the May 2003 reports that the HR Connect Program Office provided to each bureau, which
documented the results of this analysis, there is evidence that the savings are not reliable. The
HR Connect Program Office reported $173.8 million in leave notification savings in its FY 2004
Exhibit 300 for all bureaus. However, Program officials later realized that these savings were
unsubstantiated and removed them from subsequent Exhibit 300 submissions without comment.
Management had many opportunities to justify the assertions made about the savings attributed
to the HR Connect system but was never able to provide adequate data or sound analysis to
justify the savings claimed.

Management’s Response:
•   IRS officials disagree that $21 million spent on the Integrated Personnel System (IPS) was
    wasted. IPS documentation was used to jump-start the HR Connect system deployment at
    the IRS that included the IPS Fit Gap analysis, IPS Master Project Plan, Transition to
    Support Plan, Communications Plan, and readiness checklists. Also, transfer of highly
    specialized IRS and PeopleSoft knowledge occurred with the reassignment of five IPS team
    members to the IRS HR Connect team.

Office of Audit Comment:
We attempted to review the products and documentation that were produced by the IPS team.
However, the head of the IRS implementation team informed us that there was nothing of
substance to review. Furthermore, the HR Connect Program Office notified us that the IPS
produced “very little of relevance.” While there may have been some intangible benefits, it is
evident that the IRS did not get a $21 million product, particularly when compared with the
2 other agencies that we contacted, who were able to completely implement the PeopleSoft
HRMS® software for the same approximate cost of the IPS project ($15 million for the United
States Department of Agriculture, and $24 million for the Coast Guard).

Management’s Response:
•   The Department of the Treasury disagrees that the $20 million expended on 2 contracts by
    the HR Connect Program Office was wasted. By 1999 a personnel processing system was
    produced and an NFC interface was operational for the Office of the Comptroller of the
    Currency and the Bureau of Alcohol, Tobacco, and Firearms. Recognizing the potential for
    improvements, the HR Connect Program Office adopted the recommendation of an
    independent consultant to cancel the contracts to improve business efficiencies.
                                                                                          Page 41
                   The Department of the Treasury’s HR Connect Human
                    Resources System Was Not Effectively Implemented


Office of Audit Comment:
The HR Connect Program Office released 1 of the 2 contractors for nonperformance, after
$20 million was expended. The 2 contracts totaled $110 million, and after spending the
$20 million, the work was re-awarded under a single $110 million contract to 1 contractor. The
HR Connect Program Office did not reduce the single contract by the $20 million that it had
already expended on the previous 2 contracts.




                                                                                        Page 42
